No.

In the irprente 0_,ourt of t!je ?finite; i§tateo

DARIUS WAYNE HAWS, PETITIONER,
V.
STATE OF IDAHO

On Petition for a Writ of Certiorari
to the Supreme Court of Idaho
PETITION FOR A WRIT OF CERTIORARI

As required by Supreme Court Rule 33.1(h), I certify that the Petition for a
Writ of Certiorari contains 6294 words, excluding the parts of the document that
are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 4, 2021.

Joshua S. Johnson
Counsel for Petitioner

